<html>
<title> - THE U.S. POST-TYPHOON RESPONSE IN THE PHILIPPINES: HEALTH AND HUMAN RIGHTS ISSUES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                   THE U.S. POST-TYPHOON RESPONSE IN
                   THE PHILIPPINES: HEALTH AND HUMAN
                             RIGHTS ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 3, 2013

                               __________

                           Serial No. 113-141

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

 85-788PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Nancy Lindborg, Assistant Administrator, Bureau for 
  Democracy, Conflict and Humanitarian Assistance, U.S. Agency 
  for International Development..................................    11
Mr. Sean Callahan, chief operating officer, Catholic Relief 
  Services.......................................................    28
Mr. Chris Palusky, senior director, Humanitarian and Emergency 
  Affairs, World Vision..........................................    38

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Nancy Lindborg: Prepared statement.................    15
Mr. Sean Callahan: Prepared statement............................    34
Mr. Chris Palusky: Prepared statement............................    41

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59

 
                   THE U.S. POST-TYPHOON RESPONSE IN
                   THE PHILIPPINES: HEALTH AND HUMAN
                             RIGHTS ISSUES

                              ----------                              


                       TUESDAY, DECEMBER 3, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 3 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And I want 
to apologize for being a few minutes late. We did have a vote 
on the floor, and some of the members will be arriving as they 
finish their business on the floor.
    Nearly 1 month ago, the deadliest typhoon ever to hit East 
Asia devastated portions of the Philippines including the 
islands of Leyte, Samar, and Cebu. With sustained winds of 155 
miles per hour, Typhoon Haiyan and Yolanda, because they call 
it Yolanda locally, reached as high as 270 miles per hour at 
one brief point. The storm surge reached a maximum height of 40 
feet. It is the deadliest Philippine typhoon on record, killing 
more than 5,600 people. Another 1,759 are listed as missing. 
Approximately 26,000 were injured. Yolanda is also the 
strongest storm ever recorded at landfall, and unofficially the 
fourth strongest typhoon ever recorded in terms of wind speed. 
Philippine Foreign Secretary Alberto del Rosario told us that 
the storm was 3\1/2\ times the size of Hurricane Katrina.
    Last week, I led a congressional delegation to the 
Philippines to witness the devastation unleashed by the typhoon 
and to gain a better understanding of the unmet needs going 
forward. Joined by my distinguished colleagues Trent Franks and 
Al Green, and staff director Greg Simpkins and counsel Piero 
Tozzi, we were unanimous in our deep respect and abiding 
gratitude for the accomplishments of the U.S. military, USAID 
leaders, and NGOs on the ground including Catholic Relief 
Services who alone have committed over $20 million to assist 
the victims. For their part, the Philippine military was also 
playing a vital role along with remnants of local governing 
bodies.
    In the immediate aftermath of the storm, right up until our 
arrival, highly motivated U.S. servicemembers brought 
desperately needed supplies including food, water, medicine, 
and housing materials by the planeload to the ruins of 
Tacloban, with homeless, destitute victims--over 19,000 and 
counting--hitching flights back to Manila for safety and 
shelter. As was the case after the 2004 tsunami, the United 
States deployed an aircraft carrier, this time the USS George 
Washington, and other major military assets to provide 
assistance. Smart, rapid response combined with unique airlift 
capability has made all the difference in the world.
    In the Philippines, I had the privilege of meeting Colonel 
Eric Mellinger, Chief of Staff of the 3rd Marine Expeditionary 
Force. I would note parenthetically that I nominated Eric to 
the Academy in 1982 in my first term, and it was clear watching 
him in action that he had earned extraordinary respect, from 
the top of the command, down to the lowest private. His 
leadership and that of Generals Kennedy and Wissler ensured 
that a desperate, shell-shocked population of victims got 
immediate, tangible aid. Every Marine I saw, every Marine we 
saw, including three from New Jersey--Lance Corporal Anthony 
Pellegrini, Lance Corporal James Soccodato, and Lance Corporal 
Michael Nappa--was working around the clock to protect victims. 
``Sleep? What is that?'' one Marine told me with a smile. ``We 
are saving lives.''
    Al Dwyer, Principal Regional Advisor for East Asia and the 
Pacific at the USAID Office of Foreign Disaster Relief said 
that ``when the U.S. hit the ground things got moving. This was 
a model response,'' he said. ``We saved lives here--I know that 
for a fact.'' The cooperation and teamwork of our military and 
disaster assistance leaders from USAID, including Jeremy 
Konyndyk, Director of the Office of U.S. Foreign Disaster 
Assistance who traveled with us, the NGO community, and 
Philippine officials was a textbook example of how disaster 
assistance ought to be done. But of course the relief efforts 
are far from over. The emergency phase has no matriculated into 
the recovery phase and much more needs to be done.
    With Donal Reilly from Catholic Relief Services, and we 
were with him the entire day when we were in a devastated city, 
our delegation visited a sanitation kit distribution at a local 
parish and received a briefing from Mayor Petilla of Palo whose 
daughter Jessica Petilla, coincidentally, is a medical doctor 
in my own State of New Jersey. And we met with numerous 
survivors who told us heartbreaking stories, and yet somehow 
radiated a calm and inner peace. One man told us how his father 
had drowned only a few feet from we stood and how he had 
stoically carried many waterlogged dead bodies to a mass grave. 
He said he nearly collapsed emotionally however when he carried 
the lifeless body of a 3-year-old girl. He said he just broke 
down. He was overwhelmed, and he felt he could continue no 
more. Yet amazingly, a few days later there he was, determined 
to rebuild and overcome, and he was all full of faith.
    That resiliency was best summed up by Archbishop Jose Palma 
of Cebu who said and I quote, ``The typhoon was the strongest 
in the world . . . but our faith in the Lord is even stronger . 
. . no calamity or natural devastation can quench the fire of 
our hope. The Filipino soul is stronger than Yolanda.''
    En route from Tacloban to Manila aboard a C-130 commanded 
by Major Jason Kauffman, our plane was diverted to seek the 
whereabouts and rescue of a helicopter that crashed into Manila 
Bay. After a flawless, just above the deck, systematic search 
for survivors, because the helicopter had long since sunk to 
the bottom and it was kind of like looking for a needle in a 
haystack, the pilot spotted two individuals who had no life 
jackets who were swimming frantically, opened the back of the 
C-130 and kicked out a yellow life raft to the two lifejacket-
less swimmers. With night darkness fast approaching, it was 
clear that their lives had been saved.
    That was emblematic, a symbol of what everything that was 
going on on the ground in Taclaban and elsewhere was all about. 
Aboard, the crew was Colonel John Peck and a group of 
individuals who were just ecstatic that they saved two more 
lives, in addition to all the others they had a hand in saving.
    Back in Manila we had productive meetings with both the 
Health Minister Doctor Enrique Ona and Secretary of Foreign 
Affairs Albert del Rosario. We also met with people from the 
Millennium Challenge Corporation, one of whom was Matt Bohn who 
told us that roads constructed pursuant to a contract of some 
$435 million, a 5-year MCC grant, had been only minimally 
damaged and that the road actually paved the way for 
humanitarian supplies to make their way to the victims. We also 
met with a plethora of NGOs and U.N. agencies. Our interest was 
not only how effective our emergency aid coordination had been 
throughout it all, but going forward where our assistance ought 
to be directed in the medium and in the long term.
    We felt that two areas deserved very special attention, 
preventing and addressing potential epidemics and minimizing 
the scourge of human trafficking. It normally takes 2 or 3 
weeks for a marked increase in disease prevalence after a 
natural disaster such as a typhoon, but international health 
experts on the scene told us that dengue fever was already 
endemic in the storm-ravaged areas and could increase four- to 
five-fold in the coming weeks. In addition to dengue fever, 
cholera, hepatitis A, typhoid fever, leptospirosis, pneumonia, 
and other diseases can proliferate in a post-storm environment. 
There are vaccines for cholera, hepatitis A, and typhoid, but 
there are no vaccines for dengue fever, leptospirosis, and 
other diseases that might manifest in huge numbers.
    Efforts to address the potential epidemic are complicated 
by several factors. First, the Philippines is undergoing a 
rainy season that will not only increase breeding grounds for 
mosquitos and other disease-bearing pests, but will also hamper 
relief efforts. Furthermore, many residents without shelter or 
with inadequate shelter will be more susceptible to the 
elements. The lack of electricity could mean no cold chain for 
medicines that must be refrigerated to remain usable including 
safe blood for women. There are some 90,000, some estimates are 
higher, of women who are pregnant, who have lost their ability 
to go to a venue where safe delivery can occur.
    We know that some 200 health clinics have been destroyed in 
whole or in part, so a venue for them to give birth safely and 
with access to safe blood remains a very serious challenge 
going forward. Third, many roads remain uncleared or badly 
damaged, making transportation for health workers or patients 
more difficult. Fourth, many Filipino health workers have 
either left the affected areas or they died in the storm, and 
the continued presence of foreign health workers will depend on 
ongoing donor funding and the health needs demanded by 
subsequent crises elsewhere.
    Internationally funded protection efforts currently focus 
on family reunification, personal identification, and creation 
of safe spaces for women and children. USAID grantees are 
establishing women-friendly and child-friendly spaces in 
strategic locations to address the needs of women and 
adolescent girls as well as male children. The lack of 
electricity and insecure housing raises their risk of falling 
prey to abusers and traffickers, especially at night. However, 
while there is acknowledgement of the increased risk of human 
trafficking in the wake of the storm, the lack of reports of 
increased trafficking has meant that this issue is not yet in 
full-focus for protection. Maybe it is a good news story, for 
we know traffickers are ready to prey on the vulnerable and we 
know the Philippines has a huge problem of women being 
trafficked and children as well.
    Also important will be providing shelter for the 1.2 
million families whose homes have been damaged or destroyed. 
The Secretary of Foreign Affairs told us that $1.3 billion will 
be needed to repair and to erect homes that have been 
destroyed. The Philippines, as we all know, is a major American 
ally and a great trading partner. There are an estimated 
350,000 Americans living in the Philippines and 4 million 
Filipinos living in the United States. We are bound by a common 
value system and a great deal of friendship that spans well 
over a century. We have an important stake in seeing that our 
friends and neighbors in the Philippines can recover from this 
devastating storm.
    The purpose of this hearing is, what do we do next? How do 
we proceed and go forward? I would like to yield to my good 
friend and colleague Ms. Bass for an opening statement.
    Ms. Bass. Thank you very much, Mr. Chair. As usual, I want 
to thank you for your leadership in holding today's hearing and 
also for making the trip to the Philippines. I want to extend 
the warm welcome to Assistant Administrator Lindborg and for 
her leadership and in agreeing to come before the subcommittee. 
And to our other witnesses, thank you for your participation 
and the important work each of your organizations is doing to 
provide relief and support to those in need.
    Los Angeles and my congressional district is home to a 
large Filipino population who has family that have been 
impacted by the typhoon, and I personally have friends who 
could not find their family members for many days. The U.S. 
response to this crisis has been nothing but immediate and 
swift, and I want to take this opportunity to acknowledge and 
thank the important work currently underway by USAID and DoD 
whose rapid response has undoubtedly saved lives and prevented 
death and injury. And also let me extend my deep appreciation 
to the many U.S. based NGOs that leaped into action and to 
those who continue to take on the long and arduous work of 
rebuilding and helping mend people's lives.
    I want to yield the rest of my time to Representative 
Green, who I know--oh, okay, Mr. Chair. Go right ahead.
    Mr. Smith. Before I go to Mr. Green, I do want to go to 
Chairman Royce. But I will yield to my friend and colleague 
Chairman Royce, chairman of the full committee.
    Mr. Royce. Well, I will yield to Mr. Al Green at this time 
if that is all right, Mr. Chairman. Thank you.
    Mr. Green. Well, thank you very much, Mr. Chairman, and 
thank you to Mr. Royce. Mr. Royce, I want to thank you because 
you immediately started this process with a resolution and I 
know you will say more about it so I won't step on your words, 
but I do want to thank you for moving as expeditiously as you 
did.
    Mr. Chairman, I sincerely thank you because you were not 
only a great leader, you were a great inspiration while we were 
there. I will tell you that your summary that you just accorded 
us is entirely accurate, and I would like to associate myself 
with each and every word that you articulated. I am very proud 
to say that the codel was bipartisan, and our effort was truly 
a sincere, nonpartisan effort. We went there to be of 
assistance, and I am proud to have been associated with the 
endeavor. To my ranking member, I thank you for allowing me to 
be a part of this as an interloper. I seem to find my way into 
places, and you have greeted me warmly, and I have great 
respect and admiration for you, and I thank you so much for 
allowing me to be a part of this august body today.
    I would like to extend my condolences to the people in the 
Philippines. They have suffered greatly. They are in a recovery 
phase, but there is still great work to be done. And I want to 
assure them that my visit has only strengthened and reinforced 
my belief that there is much that we can do to be of 
assistance. I would like to thank the witness. I did have an 
opportunity to read your testimony, Ms. Lindborg, and I found 
it quite compelling and very extensive, and it validated what I 
saw while I was there. So I thank you.
    I was inspired by the unity of the effort when I was there. 
There was a tripartite process that involved our Embassy which 
was right there at the forefront. The leadership was stellar 
and outstanding. We had USAID all over the place. Signs, 
people, it was remarkable to see how the organization managed 
to become almost ubiquitous. You were there and everywhere. And 
then of course we had DoD. I was very proud to be an American 
and to be there, because our Marines landed and people 
applauded. And the Marines didn't just show up. In the parlance 
of many of my friends who live where I live, they showed up and 
they showed out. They really acquitted themselves well.
    The chairman talked about the rescue mission which was 
something that happened while we were en route to do something 
else, but they were efficacious and they did it with alacrity 
and I was proud of the way they handled themselves. The Marines 
that I met, about 15 from Texas, gave me phone numbers, and on 
Thanksgiving Day I received one of the greatest rewards you can 
receive when you call a family member and say I saw your son, I 
saw your daughter. I saw your husband or your wife, and they 
are doing well and serving our country well. And there were 
tears of joy that emanated from some of these relatives, and 
others were just gratified to know that we took the time to go.
    So Mr. Chairman, I think we did a good thing, and again 
thank you for your leadership. Mr. Franks isn't here. I would 
like to mention him and say to him that I am proud to have been 
associated with his efforts. He has arrived now. Excuse me, Mr. 
Franks. Excuse me. My apologies. Mr. Franks from Arizona, he 
and I had an opportunity to spend a lot of time together, and I 
am gratified that we had that chance to see and understand many 
things about the Philippines. Mr. Chairman, I don't know how 
much time you have given me, but if you would just allow me a 
couple more minutes I would greatly appreciate it.
    I do want to mention that our relationship with the 
Philippines is one that is solid, in my opinion, because the 
relationship is based in part upon business. We are their 
second largest trading partner. But it is more than a 
relationship, it is a partnership. We have a visiting force 
agreement with the Philippines. It is more than a partnership. 
It is also a kinship because we have many Americans who live in 
the Philippines, about 300,000, and we have Americans with 
children that are being born in the Philippines. And this 
relationship, this partnership, this friendship, this kinship, 
makes our association quite unique, and I am proud of it.
    I read the testimony, and in your testimony, ma'am, you 
mentioned that about 800,000 people were moved out of harm's 
way. That answers a question that I had when I went over to 
Tacloban. When I saw the devastation, I immediately asked 
myself why weren't more people killed? It was a miracle in my 
opinion that more people were not killed. But a part of the 
answer has to do with the way the government was able to 
evacuate 800,000 people in short order. That was a fantastic 
effort, and I am proud to say that I know we had a hand in it, 
but I am proud to say that that saved a lot of lives. I don't 
know how many, only God knows how many, but a lot of lives were 
saved by this effort to evacuate people.
    And finally, I want to just acknowledge that we have a 
bill, H.R. 3602, and any bill that I file is one that I am 
amenable to changing. There is nothing in the bill that is 
sealed in any sort of permanent way. But what it does simply is 
accord Filipinos who live in the United States of America 
temporary protective status. We can change the name. We can 
find another way to do it. But here is why I think it is 
imperative that we do this in some way by some name. Because 
the people there in the Philippines, 42 percent approximately 
live off of less than $2 a day. To send people back into harm's 
way, in a sense, I think that is a little bit, to be very kind, 
insensitive. There are many other adjectives.
    But I think we, as a great country, can allow them to stay 
for some period of time, all negotiable, and work and send 
remittances back to the Philippines. Last year, more than $10 
billion in remittances were sent from the United States to the 
Philippines. More than $10 billion. We can help the people of 
the Philippines help themselves with something. Right now we 
are calling it temporary protective status. Call it anything 
you want. Anybody can sponsor it that can get it done. I just 
think we need to do something to allow people to help 
themselves, and this is a way that it can be accomplished. $2 a 
day, not a lot. We have people working here, their visas will 
expire. Let them continue to work and send those remittances 
back home. Those people who say I want to send money, I am not 
sure who I should send it to, well, this way the money will get 
to people who need it because these are family members and 
friends of people who are living in this country.
    Now to Major Angel Hooper. She was the commander of the C-
130 when I had an opportunity to go on the flight deck, and I 
just want to put in a good word for the women who serve in the 
Marines. They are doing an outstanding job as well, and I 
salute her. She is from Texas, yes, and she had her copilot in 
training. And I was so proud of the way she was training her 
copilot. And I salute all of our men and women who serve. Thank 
you, Mr. Chairman. I yield back the time that I do not have.
    Mr. Smith. Mr. Green, thank you very much, and it was a 
pleasure to join you and Trent Franks on the trip. I would like 
to now yield to the distinguished chairman of the full 
committee, Ed Royce.
    Mr. Royce. Well, thank you, Mr. Chairman. Thank you to 
yourself, to Mr. Franks, to Al Green. Mr. Green, you are right. 
We have a kinship with the people of the Philippines and I 
think that our hearts really go out for the families and the 
victims, the 5,600 people who lost their lives. But the reason 
I want to commend the three of you is because your focus on 
this trip was what additional steps could the United States 
take to make certain that we did not have an epidemic that 
would follow those who lost their lives that day, that 
malnourishment wouldn't add to that toll.
    And I just tell you as chairman of the Foreign Affairs 
Committee, I strongly support the U.S. effort here to help the 
Philippines recover and rebuild, and I think the U.S. Agency 
for International Development is playing a critical role in 
this effort along with the brave men and women of our armed 
forces. To date we have allocated $60 million to recovery 
efforts. The USS George Washington is stationed offshore to 
support relief efforts. And I think many in the Filipino-
American community were directly affected. I know we hear from 
families about how this typhoon, the worst on record, took from 
them friends and family members that in many cases are still 
unaccounted for.
    So we applaud the community's effort to come together, to 
raise funds, to donate humanitarian supplies. Filipino-
Americans are rightly proud of their heritage, and they are 
committed to helping those affected by the typhoon. I wanted to 
just also thank Karen Bass and Randy Weber. We had a hearing 
not long ago, a field hearing, where we heard from a Filipino 
who had gone through this tragedy of being trafficked, labor 
trafficking in this case. And it is in the wake of disasters 
like this that there could be more exploitation, and jointly we 
are working to make certain that does not happen. So I want to 
thank Karen Bass and Randy for their work on that issue.
    And I want to say that I had the pleasure of meeting with 
Assistant Administrator Nancy Lindborg in the days immediately 
after the typhoon made landfall, and I wanted to say that it is 
quite extraordinary the work that USAID is doing there. We 
thank you. We thank your team for bringing comfort and 
compassion to those who need it most.
    And I do have one issue that I want to raise concerning our 
nation's disaster relief efforts. We met with Bill Gates, the 
committee members met with Bill Gates several hours ago, and it 
is one of the issues in which he addressed the meeting was the 
unacceptably long transit times for supplies to reach those who 
need them most. The 60-year-old law that governs food aid 
prevents the timely delivery of assistance by requiring the 
commodities be sourced directly from the U.S. and then 
transported overseas. Sixty years ago this made sense, but 
today it has become an unnecessary barrier. In the case of the 
Philippines, USAID made a cash contribution directly to the 
World Food Programme so that commodities can be purchased 
locally.
    In comparison, the first shipment of U.S. rice to the 
Philippines is arriving now. It just arrived, 3 weeks after the 
typhoon made landfall. So surely we can do better than that, 
and it is time we updated our laws. And I did want to say that 
Mr. Engel and I have language that we believe, that we hope is 
going to be in the farm bill in order to make that reform. So 
Mr. Chairman, I am heartened by the outpouring of support that 
the international community has shown to the Philippines. I 
thank you again for your hard work on this issue, and 2 weeks 
ago this committee voted unanimously in support of a bipartisan 
resolution that I authored expressing our condolences for the 
people of the Philippines and in support of the recovery effort 
being waged now by USAID and by the Department of Defense.
    And earlier this year, I led a bipartisan delegation with 
my good friend, Ranking Member Eliot Engel to the Philippines 
to strengthen our bilateral relationship with that country. We 
are going to do that again in the wake of these issues, but in 
the interim I want to thank all the members of the committee 
and to say we are all Filipinos during this difficult time, and 
I look forward to hearing from our distinguished witness. Thank 
you.
    Mr. Smith. Chairman Royce, thank you very much for your 
leadership and for your comments today. I would like to now 
recognize Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, and thank you for 
calling this hearing. And as we start to look at the issue, the 
personal firsthand testimony of you and others who have visited 
the region is certainly one that can't help but touch your 
heart when you hear about people being displaced. Some 3.8 
million people have been displaced. It is hard when we start 
talking in millions to really recognize the size, but it is the 
size of the State of Oregon. If everybody in Oregon were 
displaced it would be just monumental in terms of the impact.
    And so I think that in a town where many times we can be 
very critical of agencies, their roles, and what has happened, 
the testimony that has been shared by my colleague Mr. Green 
and the chairman certainly is something that needs to be 
applauded, and we need to celebrate those successes and 
hopefully put a model going forward on how we can make sure 
that our response is not only rapid, but it is one that is 
sustainable. Because I think the difficulty we have as with so 
many tough situations throughout our world is being able to 
replicate that and make sure that the bureaucracy does not get 
in the way of providing good support, but yet at the same time 
where we just don't throw money at it.
    And Chairman Royce just mentioned this particular issue on 
a 60-year-old law that we need to address and look at that in a 
real way to make sure that in times of emergency people can 
work together. And I just want to thank the chairman and 
Ranking Member Bass for the continued bipartisan support. There 
is very little that is bipartisan in this town, and time and 
time and time again I find that on this committee and with the 
interest of the people, not only the United States citizens but 
in this particular case the Filipino people that are hurting 
and suffering, my heart, my prayers and my continued support to 
advance the cause to provide relief is unyielding. And with 
that I yield back.
    Mr. Smith. Thank you very much, Mr. Meadows.
    Mr. Weber?
    Mr. Weber. Thank you for the meeting, Mr. Chairman. I have 
got lots of questions but I am short on time because I have a 4 
o'clock meeting. So I am going to be quiet and let it go.
    Mr. Smith. Okay. Mr. Franks?
    Mr. Franks. Well, thank you, Mr. Chairman. And I want to 
thank, I guess Chairman Royce has gone on to another committee, 
but we appreciate his forbearance in all of this, and it has 
certainly been a precious honor to have been part of this 
delegation. It seems like Congressman Chris Smith is always at 
the forefront of doing anything he can to recognize the image 
of God in every person across the world or in our midst, and I 
have always seen him to be the first one to care about and love 
those that everybody else has forgotten about. And he is a hero 
to me, and I have just the greatest respect and appreciation 
for all he does and has done, and again it was one of the great 
memories of my life to be able to accompany him there.
    And Congressman Green was someone that I held to be a 
friend before we went, but now I hold to be a precious friend, 
and was so touched by the way as he put it so aptly that this 
was a truly bipartisan effort to making a nonpartisan goal to 
try to reach out to the Filipino people. And I appreciate 
Congressman Green very, very much.
    As it happens, I have the privilege--and I mean that--the 
privilege to have been married to a lady from the Philippines 
for 33 years. And I don't know how in the world that happened, 
but if she ever leaves me I am just going to go with her. It 
seems I can save a little trouble that way. But she has been 
the delight of my life and is representative of the noble 
nature of the Filipino people. This is a people that refused, 
as Congressman Smith said, to be brought down ultimately by the 
storm. They were stronger than the storm. And I couldn't help 
but notice a banner that someone had taken a picture of out on 
a high hill there that had been devastated all around it. And 
the banner simply said, ``Roofless, homeless, but not 
hopeless.'' And I was deeply moved by that.
    The Filipino people are people of deep abiding faith and 
have a courage that sometimes belies their stature and their 
gentleness, and I just can't express to you the warmth that I 
feel toward the Filipino people. And maybe I am a little 
biased, but I assure you it is well justified. And it is also I 
suppose of note to point out that they have been strong allies 
of the United States in times past, critical allies of the 
United States. One of the places where the storm actually came 
to shore was a place that marked General MacArthur coming to 
shore at Leyte decades ago, and I thought the symbolism was 
pretty profound.
    I would be really lax in not pointing out my agreement with 
both Congressman Green and Congressman Smith related to the 
exemplary coordination that occurred there among USAID and all 
the groups, all the NGOs, and I have to say especially the 
American military. I suppose there is no enemy on earth more to 
be feared than the American military, but there is no friend 
that can be more capable and more committed than this same 
group of men and women that I think exemplify everything that 
America is all about. And they provided the base of operation 
there and the muscle to make this all work.
    And I know that there are so many of the Filipino people 
that we didn't get there in time to help, that this help didn't 
get there in time, and I only hope that somehow they are not 
forgotten and that their memory is kind of a catalyst in our 
hearts to recognize that to be an American is a privilege and 
also one of those things that we sometimes forget how much 
easier we have it than just about anywhere in the world. And so 
it is everything about being appropriate to do what we can to 
extend the hand of freedom and hope to those that are in need 
and this is what this was about. And I think it not only 
exemplifies what America believes and stands for, but I think, 
Mr. Chairman, it can have the effect of seeing the light of 
freedom someday fall across every lonely place, every lonely 
face on this planet.
    And so let me just suggest to you that I am very honored to 
be an American and to have been part of this effort, and I am 
grateful to all the people like Ms. Lindborg that have given 
their lives to these kind of causes. And I am hoping, Mr. 
Chairman, that I can just ask her when she has the opportunity, 
because my challenge is I have to leave as well, but I am 
hoping that she can address the whole issue about what USAID's 
plans and efforts are to protect trafficked children and abused 
children, and what are the best programs that they have to 
protect children from being abused in crises like this and how 
do we make sure these programs are in place. And I am going to 
go ahead and mention the whole epidemic situations that may 
follow whatever area they might be and what we need to do to be 
prepared for those kind of crises.
    And finally, it was suggested while we were there that when 
people like Chris Smith and Congressman Green and others talk 
about this in the media that it keeps this issue in front of 
the public, which allows them to respond financially and 
otherwise, and it is a consequence that ends up protecting real 
lives. And I am hoping that you might express ways that as 
Members of Congress we can extend our efforts there to make 
sure that we are doing everything we can here in the safety of 
the Capitol to do what we can to see protection and help 
extended.
    And with that Mr. Chairman, I tell you it just exemplifies 
this morning, anything else just a sense of gratitude. Grateful 
to all of you and grateful to you, sir, especially. And God 
bless the Filipino people.
    Mr. Smith. Thank you very much, Mr. Franks, for your 
eloquence and your extraordinary compassion, and you too Mr. 
Green. It was a privilege to travel with both of you.
    I would like to now go to and introduce our first panel 
beginning with Nancy Lindborg who is the Assistant 
Administrator for the Bureau for Democracy, Conflict, and 
Humanitarian Assistance at USAID. She has testified before our 
committee on several previous occasions including earlier this 
year on the crisis in the Sahel. Since being sworn into office 
in October 2010, Ms. Lindborg has led DCHA teams in response to 
the ongoing Syria crisis, the Sahel in 2012, the Horn of Africa 
in 2011 droughts, the Arab Spring upheaval, and numerous other 
global crises. She has also been on the ground recently in the 
Philippines, actually briefed me and my staff before we left, 
having just come back herself from the typhoon.
    Prior to joining USAID she was president of Mercy Corps 
where she spent 14 years. She has held a number of leadership 
positions, including service as co-president of the board of 
directors of the U.S. Global Leadership Coalition, one of the 
founders and board members of the National Committee on North 
Korea, and chair of the Sphere Management Committee. She is 
also a member of the Council on Foreign Relations. She holds a 
BA and MA in English Literature from Stanford University, and 
an MA in Public Administration from the John F. Kennedy School 
of Government at Harvard University.
    Administrator, the floor is yours.

     STATEMENT OF THE HONORABLE NANCY LINDBORG, ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT AND HUMANITARIAN 
     ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Lindborg. Thank you very much. Chairman Smith, Ranking 
Member Bass, members of the subcommittee and others, thank you 
very much for inviting me to testify today. A special thanks to 
you, Congressman Smith, for leading the delegation and to all 
of you who went during this important time. And most of all, 
thanks to all of you for the ongoing support that enables us to 
do this kind of lifesaving work and really express who we are 
as Americans in these times of need. That is vitally important.
    This has been the worst year since 1993 for the 
Philippines, and the November 8th super typhoon was the worst 
of those storms the worst at an already bad year with 195 miles 
an hour winds, a storm surge that reached higher and went 
further inland than the Indian Ocean tsunami. To date we know 
that 5,600 people have died and nearly 11 million have been 
affected. As did many of you, I again express my deepest 
condolences to the people of the Philippines. These are life-
changing losses that will take many years to fully regroup 
from.
    As you noted, I traveled to the Philippines 1 week after 
the storm made landfall and saw the staggering devastation. And 
you see the photographs, but when you are in it it is this 
eerie, twisted landscape of boats and cars tossed up in trees 
and people's lives utterly destroyed. But you also see these 
signs of hope, the signs of humanity that surface even during 
these difficult moments. I met a brother and sister, and the 
sister was telling me about how her brother rescued 13 people 
at great personal sacrifice during the typhoon. These are the 
stories that are side by side with the devastation and the loss 
and the great resilience of the people as they begin to emerge 
from the worst of the storm.
    I also saw a massive relief effort already in full swing. I 
arrived on a U.S. military C-130 that was carrying lifesaving 
supplies that USAID had brought in from our regional depots. I 
also saw the rice that we had enabled the World Food Programme 
to buy locally being put into family packs and distributed so 
that it was in the hands of 2.7 million people within the first 
week, making a lifesaving difference. And I visited government, 
a Philippine-run incident command center that was mapping out 
the distribution, sending out supplies on pedicabs, buses, and 
trucks that they had recruited into the effort. This is the 
result of a 10-year partnership with USAID to increase 
preparedness and the ability to respond.
    U.S. military aircraft delivered more than 2,000 tons of 
relief supplies and evacuated 21,000 people out of the storm 
damaged areas once we got back in. To date, the U.S. Government 
has provided nearly $60 million in humanitarian assistance. All 
of that is already on the ground and has made a difference 
during those lifesaving days. So as we have noted, we are 
already looking ahead to recovery and reconstruction. I have 
submitted a full, detailed testimony, but let me just hit on a 
few highlights from the relief, the recovery, and the 
reconstruction aspects.
    The first is that we have applied some really key lessons 
from past mega-disasters that helped us improve the 
coordination and the response for this typhoon. USAID experts 
were tracking the typhoon for at least a week before it hit 
ground, so we were able to pre-position members of our disaster 
assistance response team in Manila to work with the military 
and the Embassy both to prepare and enable an immediate 
response. USAID worked hand-in-glove with DoD Pacific Command 
to set up that vital air bridge that at a time when 
communications were shut down, roads were inaccessible, that we 
were able to immediately do assessments and begin delivering 
lifesaving supplies into Tacloban which was one of the hardest 
hit cities.
    And then we invested and supported the capacity of the 
civilian side, both the government and the U.N., to set up land 
and sea bridges to help clear the roads so that we were able to 
wrap up the military engagement and bring forward the longer-
term civilian ability to ensure that the deliveries were able 
to continue.
    So logistics were our number one, most urgent focus 
followed by three key priorities--emergency shelter, water 
sanitation, and food. There were about 1 million homes that 
were destroyed by the storm, so we airlifted, right away, 
heavy-duty plastic sheeting to the Philippines that helped more 
than 20,000 families construct temporary shelters. The water 
supplies were ravaged, the systems were down, so we focused 
both on provision of clean water with chlorine tablets and very 
quickly worked to get the municipal water system in Tacloban 
back up and running with support from UNICEF. And by the time I 
was there, that was already providing 100 percent of the water 
for the municipal area in Tacloban.
    The Philippines Government and the international community 
continue to respond to the health concerns. There are nearly 
200 health teams on the ground now, and more than 2,000 
children have been immunized against measles and polio. Perhaps 
because of the urgency you brought, Chairman Smith, there are 
fogging operations underway right now to address the potential 
for mosquito-borne diseases, especially dengue fever. And with 
standing water trapped in the debris, this is a particular 
concern, so there has been a big push for fogging operations.
    As Chairman Royce noted, we used the full spectrum of our 
food assistance tools. That local purchase of rice got food 
immediately into the hands of people who needed it then. We 
also were able to airlift very nutrient-dense food bars and 
nutritious paste from our regional warehouses, and when there 
were no cooking facilities available families were able to get 
their full caloric needs out of these U.S.-produced food bars. 
Finally, we rerouted a ship that was just loading up in our hub 
in Sri Lanka and brought that to the Philippines. That ship 
arrived yesterday afternoon, and although it wasn't there for 
the lifesaving portion, it will be an important part of the 
ongoing response. So that is the importance of this very 
flexible, full suite of tools.
    Finally, we know the most vulnerable--the women, the 
children, the elderly and those with special needs--often fare 
the worst during disasters. We have a State-USAID initiative 
called Safe From the Start which reminds all of us that we need 
to do protection from the earliest days of a response. We are 
supporting programs that are working with identification, 
tracing and reunification of unaccompanied children, focusing 
on safe spaces for women and children, and really one of the 
most important protection approaches is making sure that aid 
gets to people who need it as quickly as possible.
    I wanted to say a note about the power of preparedness. We 
have been working with the Government of the Philippines, which 
is the second most disaster prone country in the region, to 
help prepare and mitigate the risk of natural disasters for 
almost a decade. This is critically important. This helped make 
this not as bad as it could have been. We have been training 
first responders on something called an Incident Command System 
that we brought forward from our own U.S. Forest Service that 
enables the government to set up these command centers and know 
what to do and how to bring forward the right kind of trained 
people. They evacuated nearly 800,000 people in advance of the 
storm, and this saved countless lives. This is something that 
we will continue to do as we grapple with the new normal of 
increased storms that are battering an island nation like the 
Philippines.
    We have also learned from past response efforts that we 
have to move as quickly as possible into early recovery. This 
is vital so people can get on with their lives so they don't 
get mired in hopelessness and they can start standing on their 
two feet again. We have already seen market activities spring 
up even in the hardest hit areas, so we are looking at how to 
provide lifesaving assistance that is also very aware of local 
coping mechanisms and local markets. We are moving forward with 
our strategies for provision of livelihood support, looking at 
transitional shelter, continued food security, water sanitation 
efforts, and continued protection of the most vulnerable 
populations including the human trafficking issues that are 
important and very much a part of our considerations.
    Looking ahead, the Government of the Philippines just 
released its first early draft of what they think they will 
need for the longer-term reconstruction, and they have 
identified about $2.6 billion. Each year the Philippines loses 
about $5 billion as a result of natural disasters. That is 2 
percent of its GDP. So as we look ahead to the reconstruction, 
one of the areas that we will look closely at is continuing 
this preparedness, this risk reduction and how to build 
resilience at the household at the systems and the country 
level. This was already one of the three areas of focus for our 
USAID mission, and this will be critical looking ahead. We are 
prioritizing our efforts to support the critical areas that 
have been identified including some of the infrastructure, the 
livelihoods, and essential services that are necessary to get 
those communities back up on their feet.
    And then finally we know that the most vulnerable will 
continue to be important as we go forward. So just to conclude, 
a number of you have noted the important relationship between 
the United States and the Philippines. We have seen an 
extraordinary outpouring of generosity from Americans across 
the country and especially from the Philippines diaspora. I 
have had the pleasure of participating in several community 
events, and the way people mobilize to provide help to those in 
their hour of need is really heartening, and it just 
underscores the humanity that we all share.
    The United States has a deep commitment. We will stay with 
the people in the Government of the Philippine into the 
recovery and the reconstruction era. We are already seeing the 
cameras start to fade away, and this is becoming yesterday's 
story. So the kind of hearings like we are having today, the 
continued commitment that we, the United States, will have to 
the Philippines will be absolutely vital, and I look forward to 
answering your questions, and I thank you very much for your 
support and consideration today.
    [The prepared statement of Ms. Lindborg follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Mr. Smith. Ms. Lindborg, thank you very much for your 
testimony. Without objection, your full testimony will be made 
a part of the record. And I have read it, and it answers some 
of the questions that I would have posed, so thank you for the 
thoroughness and for your extraordinary leadership. I am going 
to ask you just a few questions and then yield to my 
colleagues. And I will ask them all and if you could just then 
respond to them.
    One of the biggest takeaways we had from our trip was 
debris. There was debris everywhere. It was a story to two 
stories high. It looked like there was a lack of capacity or 
capability to remove it. And I know that there are some cash 
for work programs that Catholic Relief Services and others are 
doing, and I am wondering if that might be one job that they 
might undertake. Because there are dogs and rodents which will 
proliferate diseases including leptospirosis which could easily 
erupt as a major health hazard.
    When we got hit by Superstorm Sandy in New Jersey, and a 
lot of the shore towns were unbelievably negatively affected, 
we had debris everywhere, but thankfully we had functioning 
mayors and town councils, the ability of the sheriff who was 
the Office of Emergency Management leader in Monmouth and Ocean 
Counties, and they did wonderful jobs in coordinating the 
debris removal and environmentally safe depositing of that 
debris. Our takeaway, I think, collectively was what are they 
going to do with all this stuff? It is everywhere. And I am 
wondering if you might want to speak to that.
    Secondly, on the issue of trafficking, as you know I am the 
prime sponsor of the Trafficking Victims Protection Act and 
work on combating human trafficking every day. Something we are 
all concerned about now that the recovery efforts, now that the 
roads are all open, or most of them, is that the traffickers, 
may look to prey upon vulnerable people including the women and 
children who have made their way to Manila, who over a longer 
period of time may have lost some hope or may be very gullible 
for an offer to go to Saudi Arabia or to Korea or somewhere 
else in the Philippines for what looks like a real job, but 
turns out to be an engraved invitation to a hell on earth which 
would be a trafficking situation.
    I understand there is one protection person on the response 
team. Is that enough? Has the TIP office been brought into this 
in a robust way to apply every best practice they know to 
mitigate human trafficking? Third, we learned, and this is a 
minimum estimate, I think, of 90,000 pregnant women. My 
understanding is that there are some estimates that put that 
even higher in the affected areas. I know that the availability 
of safe blood and a venue where a woman can give birth who may 
need a C-section is a very real, compelling need and most, as I 
said in my opening, of the health clinics have been destroyed 
or very seriously damaged. And I am wondering what the plans 
are to ensure that as these women, especially in the final 3 
months of pregnancy, get close to birth of their children, will 
there be an effort to ensure that there is safe blood and a 
skilled birth attendant to save her life if she needs a C-
section or some other help for mother and baby.
    I would note parenthetically that my own daughter-in-law--
my wife and I are grandparents of three grandchildren--just in 
July in a Princeton hospital had an emergency C-section, and 
lost over 2 liters of blood, and they had to send out for some 
of it, because they didn't have her blood type. They had some, 
but not enough. And in a ravaged area that we visited, and you 
visited as well, with no health clinics that are working, that 
could mean death to a woman whereas availability of safe blood 
could mean life. So if you could address that.
    And finally, the issue of best practices learned from the 
earthquake in Haiti and the tsunami in the Indian Ocean. I 
actually was on the USS Abraham Lincoln briefly with a group of 
members. We went to Banda Aceh during the tsunami. And again, 
the deployment of the aircraft carrier was like a pivot, an 
anchor for relief efforts, particularly during the emergency 
phase. What other best practices have been learned and are 
being applied now as a result of the typhoon?
    Ms. Lindborg. You have raised a lot of the critical issues. 
So first on debris, it is amazing. I mean it reminds me of the 
snowbanks of my growing up in Minnesota where they tower over 
you. The Government of Philippines has a salvage-first policy, 
and so you may have seen as well people are already starting to 
pick through what is reusable versus what needs to be put into 
a landfill. We are taking this into account in designing our 
transitional shelter programs, and also incorporating what we 
call cash for work as a part of our programs working with our 
U.N. and our NGO partners who have a lot of skill and 
experience in doing programs that basically provide a day's 
wage in return for clearing debris away.
    This will be a huge challenge, an important challenge. 
Unfortunately, or fortunately, the Philippines actually has a 
fair amount of experience in dealing with debris. It is a scale 
issue in this instance, and it will be an area of immediate 
focus as we look ahead. You have raised some of the other 
associated concerns about disease with the debris, and for that 
reason, the fogging is a very important approach because there 
is standing water. The other issue of course is that they are 
still pulling bodies out from underneath these mountains of 
debris, which will likely remain an ongoing effort as they work 
their way through the recovery.
    On trafficking, this has been an area of concern in the 
Philippines for some time, and in fact, the United States has 
put about $11 million into counter-trafficking programming in 
the Philippines. And we work very closely with something called 
the Philippines Inter-Agency Council for counter-trafficking. 
There is a need to remain very vigilant about the possibility 
of increased trafficking. Whenever you have a major disaster 
like this and people are newly vulnerable, there is the 
potential for increased trafficking. So for that reason, we are 
watching this very closely, working with the local partners who 
we work with all the time, and looking to see where and if and 
how we need to increase the programming that we already have in 
the Philippines. And we are talking very closely working with 
our CTIP partners. So thank you for your support on that.
    On the pregnant women, the whole issue of the cold chain is 
critical, not just for pregnant women but for the immunizations 
that have to go forward. So that is a priority between WHO, the 
Government of the Philippines, and UNICEF. We have provided 
support to get the cold chain back up and running so that you 
are able to bring forward critical medicines, including blood. 
There are right now 184 medical teams on the ground. There has 
been a fairly robust international response to try to fill the 
devastating gap that the storm created, and they are now 
operating in the affected areas, working to reestablish those 
critical facilities. Also important was the early evacuation. I 
mentioned I rode in on a C-130. Our U.S. military C-130s, as 
they carried supplies in, they carried people out, and about 
12,000 people were evacuated. And the hope is that those who 
need that kind of specialized assistance, including some of the 
more complicated births, are able to get out.
    Finally, in terms of best practices, I think there were a 
lot of important best practices that we took forward from past 
mega-disasters, and one really resulted in the close, very 
effective collaboration between USAID and DoD. And we were able 
to, because of the work that we had done together previously, 
very quickly stand up an effective air bridge that prioritized 
the most important lifesaving supplies to go forward. One of 
the things that happened in Haiti is there was a clogging of 
supplies that went through the system, and sometimes not the 
most important supplies went first. So the seamless 
collaboration that was a hallmark of this effort really grew 
out of the lessons from Haiti.
    Mr. Smith. Not to make light, but I did bring up fogging 
everywhere we went and pointed out that when I was seven, 8 
years old, without any parental notification or consent, my 
friends and I used to follow the fogger in Iselin, New Jersey, 
on our bikes. So the ability to reduce the impact of dengue 
fever and some of the other, the mosquito-borne, vector-borne 
diseases that are looming, the attendant risks that fogging 
might bring, I think the risk versus the benefit of stopping 
several epidemics from bursting out is worth it and I am so 
happy to hear that. I have never seen, and I think my 
colleagues Mr. Green and Mr. Franks would agree with this, have 
never seen more standing water putrefying than we saw as a 
result of this typhoon which obviously is a breeding ground for 
vector-borne disease.
    Ms. Lindborg. Well, as someone who also followed the 
fogging trucks as I was growing up, but in fact there is a 
great concern about not just trying to address the standing 
water, but also to revitalize their surveillance system, the 
health surveillance system. Because one of the concerns is in 
the wake of the storm that we need to very quickly have the 
ability to identify where you have an outbreak so that you can 
do the fast treatment. So it is really those two actions, the 
surveillance system and the preventive fogging that are 
underway.
    Mr. Smith. Thank you so very much.
    Mr. Green?
    Mr. Green. Thank you, Mr. Chairman, and I again thank you 
for your leadership. It has been stellar. I would like to 
follow up on one thing that you mentioned, Ms. Lindborg, about 
the Filipino community in the diaspora. In Houston, Texas we 
have approximately 39,000 Filipinos, and I will tell you that 
the community has organized, and the community has raised what 
I think is a fairly handsome sum of money that has been sent to 
the Filipino community, of course in the Philippines. Sent to 
the Philippines. So I am honored to tell you that my community 
is onboard with the effort.
    I had the opportunity to go to Pakistan after the 
earthquake, and I saw the communities that were flattened, 
homes just leveled. I went to Sri Lanka after the tsunami and I 
saw a train, a rail car that had been lifted away from the 
tracks and was over some long distance away from where it 
should have been. Went to Haiti after the earthquake and saw 
the devastation that took place there, and quite frankly there 
is still great work to be done in Haiti. Went to Louisiana, I 
am from Louisiana, I was born there. So I went to New Orleans 
after Katrina, and I saw the devastation that took place.
    And in my humble opinion, what I saw in the Philippines 
rivals all of these others. I think it is right there with some 
of the great disasters of my time. And my hope is that you will 
continue to do what you are doing. Dr. King reminds us that the 
arc of the moral universe is long but it bends toward justice; 
however, we have to note that it doesn't do it of its own 
volition. It does it because of people who will go into harm's 
way to try to help others in their times of need. So I thank 
you for what you are doing, and I trust that USAID will 
continue to be the great servant that it has been.
    I want to talk about the business community for a moment. I 
had the preeminent privilege of meeting with some of the 
leading citizens who are the heads of major corporations, and 
we talked rather extensively about the largesse and lagniappe, 
their monies that they have that they can accord in a crisis, 
that they can share in a crisis. And I think that they have 
stepped up to the plate. They are making plans to do more. One 
of the things that we talked about was schools. As you know, 
the infrastructure in Tacloban has been destroyed and 
approximately 90 percent of the infrastructure for schools has 
been destroyed. And children are without what they would 
normally do in the course of a day and that is be in a 
classroom.
    These business leaders indicated a willingness to be of 
assistance to help with schools, and so my hope is that there 
will be some coordinated effort between the business community 
and the NGOs, the government, all of the parties involved to 
help children. I am concerned about people in the dawn of life 
and in the twilight of life. Our children are a precious 
commodity, and my hope is that we will do some things to help 
them with their educations. The senior citizens, persons who 
are not able to take care of themselves to the extent that you 
and I can take care of ourselves, I would like it if you would 
to comment on efforts that are being made to help them, comment 
on the schools, the efforts to help reestablish schools as 
quickly as possible.
    And finally, when we met with the mayor of Tacloban she 
indicated that the number one concern was shelter. The number 
one concern was shelter. This was the case of course in 
Louisiana after Katrina. Shelter was of great importance. It 
was the case in Haiti and in Pakistan, as well as in Sri Lanka. 
And I know that we have a lot of experience in dealing with 
shelter after these tragic events, but I also know that what 
you said is true about them being in harm's way to this very 
day because the typhoon season for them reaches its zenith, its 
apex, in the month of December, so there may be something else 
looming on the horizon. Their number one need is shelter. So if 
you would, comment on the shelter issue.
    And finally, one additional comment and compliment, if you 
will, with reference to the ability to move 800,000 people. 
That is remarkable. It is no small feat. And to do this with a 
limited amount of time speaks well of the coordinated effort 
that it took to get it done. I know you have mentioned it, and 
if you want to say just a bit more about how that was 
accomplished, I will be honored to hear. Thank you, Mr. 
Chairman. I will await the lady's answers.
    Ms. Lindborg. With my apologies for coughing, sorry. That 
is an amazing set of places that you have visited, and you have 
seen in each instance the awesome power that these natural 
events have to disrupt and to destroy. So to address your 
issues, let me first of all just honor your community for their 
ability, their commitment to mobilize, and the fact that they 
focused also on raising cash. One of our major messages has 
been to the American people who want to provide assistance is 
to focus on cash as the fast and most effective means of 
helping the people of the Philippines. So thank you for that. 
Also, we do have a listserv that we will provide your offices 
that is kicking out regular updates that are of interest, 
specifically or especially to the diaspora. So we will be sure 
to get that to you.
    On the private sector, this is an incredible and important 
part of the response, both the private business sector and the 
American public, and we see how those contributions are very 
important and, in fact, quite a large portion of the 
reconstruction effort both the immediate and the longer-term 
reconstruction. We have in USAID a special working group that 
we have set up specifically to look at how to bring forward 
those partnerships. And I know that a number of the NGOs are 
also quite experienced and committed to partnering with the 
private sector, so I think we will see a lot of those efforts 
going forward. Schools are essential. It is part of getting a 
sense of normalcy back into people's lives, and even temporary 
schools, so that you are able to help children focus on the 
future instead of just on their loss. Children are amazingly 
resilient, but it is important that they have the opportunity 
not to lose out on those critical schooling years. So that is a 
part of the infrastructure. That is one of the largest 
priorities.
    You quite rightly raise shelter both as a priority and one 
of the areas that is always one of the most challenging after 
these storms. We have learned a lot, I think, in terms of the 
importance of providing transitional shelter that gets people 
very quickly into the kind of shelter that can withstand 
additional weather events, understanding that it may be awhile 
for the permanent shelter solutions to fully come onstream. We 
saw this even in Katrina, as you noted, after Katrina.
    The other challenge is there is often a desire to look at 
policies that help citizens not rebuild in the areas that are 
at greatest risk, and these are the tough policy decisions that 
it often takes a while for a government to responsibly work 
through to a solution. So our strategy was to first of all 
provide just that urgent lifesaving shelter material that got 
people out of the elements. And we have our shelter expert on 
the ground now to work on transitional shelter programs, and 
particularly we will be very supportive of the issue of 
ensuring that people's rights very much respected as we look 
forward to the longer-term shelter solutions that will take a 
while to come forward.
    Mr. Smith. Thank you, Mr. Green. Just let conclude before I 
go into our second panel. Greg Simpkins, my staff director, and 
I were recently in Nigeria. It was in September. We visited Jos 
and Abuja. It was mostly on trafficking, health, and an effort 
to get Boko Haram designated as a foreign terrorist 
organization. But while we were there we did visit with a 
number of NGOs, including a bishop in Jos, who had lost funding 
for AIDS orphans. And it raised a serious question that I have 
been asking for 30 years, more than 30 years, and that is about 
the robust inclusion of faith-based organizations. I believe 
whether we are combating things like HIV/AIDS through PEPFAR, 
the program there, or malaria, tuberculosis, or doing relief 
operations in a typhoon or other natural disasters, that the 
efficacy of the relief operation is enhanced when faith-based 
operations are robustly included.
    They have networks. They have people on the ground. The 
multiplier effect is incalculable, and I have seen it over and 
over again. And what I found in Nigeria was that only 9 
percent, 9 percent, in other words 91 percent not, and 
particularly when the health care grid is primarily faith-
based, were getting monies, grants from the U.S. Government. 
And it was very disconcerting to me. I know that Catholic 
Relief Services is getting support, and we saw it when we went 
to the Transfiguration Church. Matter of fact, a week before 
that I understand that Cardinal McCarrick had celebrated mass 
there, and we received communion while we were there. It was a 
church without a roof, completely blown off and destroyed. And 
it had just been rehabbed and unfortunately will have to be so 
again.
    But I just would encourage you to realize that every dollar 
spent there does get multiplied because of that unbelievable 
commitment that has nothing to do with money and has everything 
to do for service for service's sake, but also because of the 
multiplier effect of the volunteers that are then included in 
the operation. So if you could take that back or if you wanted 
to respond.
    The second thing is that the recovery must be sustainable, 
and know that you have friends and advocates here. It is 
bipartisan. Mr. Green, Mr. Franks, I, the chairman Mr. Royce, 
all of us, I believe, if we know of a need as your folks on the 
ground say, ``Hey, the cash for the work needs an additional 
push,'' or they need this or that, let us know and we will try. 
I can't guarantee results, but we can try to increase the 
capabilities that you will have on the ground to help the 
people who have been ravaged by this storm.
    Yes, Ms. Lindborg?
    Ms. Lindborg. Well, to your first point, amen. We have a 
lot of really important, wonderful faith-based partners and I 
think we are seeing especially how important that is in the 
Philippines with the network of churches that they have. I was 
on a call with faith-based community members across the country 
just last week talking about the Philippines response and also 
hearing about all the efforts that are happening in this 
country to support both the relief and the recovery efforts. So 
I absolutely agree with you that that is an important part of 
the landscape, and some of our most valued partners, including 
the two who are coming up next.
    On the offer to help us keep sustained attention on this, I 
very much thank you for that, and I would welcome the 
opportunity to take you up on that offer. We see all too often 
that after the cameras go away, these kinds of responses fall 
off the page and people move onto other issues. We will be 
there with our teams, with our funding and programs and we 
welcome the partnership in helping to keep the spotlight on the 
sustained effort. And again I cannot thank enough Chairman 
Smith, Congressman Green, and the rest of your subcommittee for 
the continued focus and support for these kinds of critical 
efforts.
    Mr. Smith. I would just add that if that kind of sentiment 
could be shared with the Secretary of Health and others, I 
raised it with our meeting with him, and it was like it was a 
foreign idea to him. And I asked him to look into it and he 
said he would, because they don't include faith-based 
organizations in those things that they fund.
    Mr. Green wanted to make a comment?
    Mr. Green. Yes, sir. Thank you, Mr. Chairman. And for fear 
that I will forget, I also want to thank Ranking Member Bass 
again for allowing me to be here. I want to add an amen, if I 
may, to what you said about the faith-based initiatives. They 
not only help after a disaster, but also before. I have seen 
evidence of it, because they know where the vulnerable are. 
They know where the help is needed. They are intimately 
familiar with the people in the neighborhood, and they can do 
an awful lot with the evacuation process.
    And when people have to shelter in place, and that is 
usually what you finally hear and that is something that I 
dread hearing, but shelter in place, there is no more that we 
can do given that the hurricane in our case or the typhoon is 
so near now that we have to just stay where we are. Well, when 
that happens, it is usually these institutions, these faith-
based institutions that are still there. We leave, but they 
ride these things out, and as soon as it is over, they know 
exactly where to go to render the most aid. So I would just 
like to give my compliment to you for bringing this up.
    Mr. Smith. Thank you, Mr. Green, and I would just add one 
other thing. The concern that we have about the bias against 
them is well founded. After Superstorm Sandy, I offered a bill 
on the floor of the House of Representatives that passed 352 to 
74, totally bipartisan, and it would have provided FEMA funding 
for houses of worship, many of whom were the frontline defense 
in terms of humanitarian aid to people in New York and New 
Jersey ravaged by Superstorm Sandy. The bill passed. FEMA 
opposes it. The Senate opposes it and refuses to even bring it 
up for a vote.
    I can't tell you how disappointed and egregiously wronged I 
think those who are first and foremost in the relief side are 
when they are being told they are not going to get FEMA relief. 
There is no separation of church and state issue because they 
can apply for an SBA loan. They can do all kinds of other 
things, but they can't get that critical FEMA support. So that 
kind of bias, which I know you don't share, needs to be guarded 
against because again that first line of defense is so 
important. And so Mr. Green and I would be in absolute 
agreement; the more you can help out in that regard the better. 
Thank you.
    I would like to now welcome our second panel beginning with 
Mr. Sean Callahan who is the chief operating officer for 
Catholic Relief Services. He has also served as executive vice 
president for overseas operations and regional director for 
South Asia at Catholic Relief Services, among other roles. He 
has led CRS's regional response to floods, droughts, 
earthquakes, cyclones, and man-made emergencies in South Asia. 
In his time working with Catholic Relief Services he has 
experienced a terrorist attack at a Sri Lankan airport, worked 
closely with Mother Teresa and the Missionaries of Charity in 
Calcutta, and worked on programming in Afghanistan during and 
after the Taliban.
    And I would like to introduce Mr. Chris Palusky who is a 
humanitarian professional with more than 15 years of 
international relief, development, and fundraising experience. 
During that time he has served on a wide range of emergency 
responses assisting with both natural disasters and complex 
humanitarian emergencies. He has worked in hot spots and crises 
for a majority of his time as a humanitarian specialist 
including in Kosovo, Afghanistan, Sri Lanka, Pakistan, Sudan, 
Burma, Lebanon, and Mali. In addition to his experience with 
World Vision, Mr. Palusky has served in leadership positions 
with other leading humanitarian organizations including CARE, 
MAP International, Samaritan's Purse, and World Relief.
    Mr. Callahan, the floor is yours.

   STATEMENT OF MR. SEAN CALLAHAN, CHIEF OPERATING OFFICER, 
                    CATHOLIC RELIEF SERVICES

    Mr. Callahan. Thank you, Mr. Chairman, and I appreciate the 
fact that you are holding this session along with Ranking 
Member Bass and the other subcommittee members, and certainly 
Representative Green. Before I go, and I am going to summarize 
my comments, I just ask that the written testimony be added in 
for the record.
    First, I thank you very much for this opportunity to speak. 
I also want to just again thank both you and Mr. Franks as well 
for participating in the trip out, which CRS was able to 
participate in hosting you as well. These type of trips, I 
think, are not only important for the stewardship of the 
resources that the U.S. is committing and to generate energy, 
but it is also a type of trip that shows the compassion of the 
U.S. We found that when we were there, and we arrived a week 
after the disaster as you stated earlier, I arrived with 
Cardinal McCarrick, the outpouring from the Filipino people and 
the thanks to the United States was really overwhelming. 
Anyplace that we went, people came out of their way to thank 
the United States for that commitment and support that was 
provided at that time. And I think that type of recognition 
really shows something of the Filipino people, but I think also 
it is something that the United States should be very, very 
proud of.
    I want to just reflect as well, because the comments here 
earlier about the type of response that occurred, and just to 
quickly summarize, I think that the United States, the U.N., 
and the local organizations including the Filipino Government 
really did an outstanding job, has been articulated here 
before. From our point of view, it was a rapid response on the 
ground. We have a presence in the Philippines of over 100 staff 
working with local civil society, the church organizations. We 
had people in these sites a day after the disaster occurred and 
the response was immediate.
    I would also just highlight from the previous presenter 
Nancy Lindborg that the USAID and particularly OFDA was very 
forthright and took advantage to communicate directly to faith-
based organizations like Catholic Relief Services to let us 
know if we needed any assistance at all during this process to 
get in touch with them. The head of OFDA and his deputy 
actually made preemptive calls to us to say if things don't 
move fast, if you are having anything be blocked up that they 
would assist in moving that forward. They set up not only a 
DART team on the ground in the Philippines, but they also set 
up a special emergency coordination unit here in Washington. So 
I will say they were wonderful, including on the ground.
    I know she traveled with you, but mission director Gloria 
Steele met with us as well during our visit there. And she was 
very supportive of the efforts that we had, knew of the funding 
that had been previously provided, and was looking forward to 
our assistance in the long term. So I will say that was very 
positive. I would say the U.N. as well used one of our shelter 
models as the cluster key model that we would use into the 
future, and so the U.N. as well at that time, particularly 
UNICEF and OCHA, were particularly strong out there right out 
of the gate. And so I would just reiterate that those type of 
activities.
    I would also say as you spoke about it and as 
Representative Green mentioned, it sounds like we have been in 
the same areas in Pakistan, in tsunami, and in all of these 
different emergencies as they have gone forward that I think 
there has been a lot of learning that has gone on. Frankly, the 
tsunami was the first time that we really worked closely with 
the American military setting up temporary bridges to get to 
islands and locations that were completely transfigured as the 
geography had changed and then in Haiti as well. The U.S. 
military really came in the Philippines, and I know in Haiti 
the U.S. military tried to do it with a lighter footprint, with 
a lighter presence and they were going out providing 
assistance. In the Philippines, when they came in there was joy 
from most of the people that we talked to all around. It was 
just very, very impressive. Even in the media outlets, the fact 
that we had an aircraft carrier, as was mentioned earlier, and 
were seen as ferrying assistance back and forth, it was seen as 
assisting other countries and providing helicopters and lift 
capacity, was just very impressive at that time.
    And so from on the ground, people frankly were questioning 
their own governments, but no one was questioning the U.S. 
resolve to provide assistance. So I will say that. And as 
comments have come about as well about the diaspora in the 
United States, we have had much outreaching from the diaspora 
providing assistance for this case. We have raised over $15 
million in private contributions. The Catholic Church of the 
United States has initiated a national collection through which 
the resources will come in. So the solidarity of the American 
people has been utmost.
    In addition to that, CRS is a member of an international 
Catholic organization called Caritas International. That group 
came together, and we met and had an international meeting out 
in the Philippines with our local church partners. And I would 
be remiss if I didn't talk a little bit about our local church 
partners. As we responded to this disaster, and Cardinal 
McCarrick and I as you mentioned were there a week after the 
disaster and he celebrated mass in the cathedral without a roof 
and in the rain at that time, it is not only the material 
assistance that we are seen in the United States as providing, 
but it is also the spiritual. It is that solidarity. And I 
think as Representative Green appropriately said, it is that 
kinship.
    And after the mass, the people coming up to the cardinal 
who concelebrated frankly with two archbishops from the 
Philippines, who were so taken that an American cardinal would 
come, that the Archbishop of Cebu traveled with him to the 
location where he had been stationed before, Archbishop Palma 
of Cebu, and then the Archbishop of Palo was also present at 
that time, Archbishop John Du. We also met with the cardinal in 
Manila who was organizing a day of prayer for the people in the 
Philippines and raising assistance as well there.
    When we talk about assistance, you will notice in the CRS 
report, we don't mention that CRS is focusing on food 
assistance. And the reason is because the local Catholic Church 
was focusing on food assistance. We were providing shelter, 
water sanitation, and hygiene, but the local church was 
twinning with local parishes that did not get devastated by the 
super cyclone, and they actually provided assistance to various 
dioceses. So NASSA, which is the Caritas of the Philippines, 
and individual dioceses in the Philippines were reaching out. 
So I think as Mr. Franks also mentioned, I think the solidarity 
of the resiliency, the strength of the Filipino people is 
admirable after being through such a disaster. And I will say 
after this mass with Cardinal McCarrick, we had journalists and 
others who were in tears after this as they were struggling to 
find family members, as we were going by as they were burying 
people at the side of the road. So it was a very emotional 
time, but the Church was there immediately.
    When we arrived in Palo outside the cathedral that you 
mentioned, we were greeted by a young man who was in biking 
shorts and a t-shirt. Turns out he was the monsignor of the 
chapel. And the only way he could get around to register people 
to find out who was missing and to connect with different 
people was to ride on a bicycle. And they were going around the 
island trying to locate people by bicycle, register people, 
tell people that after mass CRS was going to be there and 
provide distributions and provide assistance and register 
people.
    So right way they were setting up the M&E systems on the 
ground, locating the people, and identifying, as Mr. Green had 
mentioned earlier, the most vulnerable people in the community 
to make sure that they were assisted. He apologized to the 
cardinal in the way he was dressed, and the cardinal just went 
up to him and gave him a big hug. So it was really a very 
wonderful, wonderful moment as we saw that type of Church 
response and solidarity that will continue. And the Holy Father 
has also spoken of that as well.
    I will say that the immediate response as has been 
mentioned and as Representative Green mentioned, we have 
focused on the shelter and getting out, we have already 
assisted 16,000 families, so over 80,000 people. Because when 
we were out there, people were just in open air, and it was 
raining on them. Even our aid workers, one of them turned to 
the Archbishop of Du and said, ``Archbishop, have you ever 
slept in your office?'' And the archbishop kind of looked at 
him. He said, ``Why do you ask?'' And he says, ``Because I am 
sleeping there now.'' So it was the type of thing where 
everybody was joining together, but even the church structures, 
people were around the outside of the walls because many of the 
roofs had been destroyed.
    And so we are looking to a future. The Church has said that 
it wants to rebuild its institutions, but the people come 
first. So they are looking at how to help the people get their 
necessary shelter, but the Archbishop of Palo had mentioned 
that 72 out of his 74 churches have lost their roofs. They are 
still sheltering people in those facilities. His personal house 
that we went into looks like it was hit by a bomb. The floors 
are slanted now. Everything is completely ruined. But he wasn't 
there trying to recover his possessions, he was getting 
assistance and aid out there. So the Church has been very 
strong there.
    You have also talked about the issue of protection. We have 
been focused on sheltering in place, and the reason why we are 
focusing on sheltering in place is: One, the design that we 
have is using these very solid tarps for protection, but also 
the recovery of debris so that they can use that in the 
rebuilding of their homes. The sheltering in place is another 
way that we find of providing protection for people, 
particularly women, children and the elderly, so that they 
aren't transited to a camp where they might be more vulnerable. 
So sheltering in the locations where they are part of the 
community, where the church can continue to keep in touch with 
them, where they come back and forth to the church, so we are 
seeing that as one way, particularly in Palo and Tacloban, as 
preventing some of the issues of trafficking and violence 
against children and women.
    We are also working closely with the local government, the 
Department of Social Welfare, in those areas to make sure that 
those people stay safe. Our second focus area has been water 
and sanitation and so we have been looking at WASH. We have got 
bladders out in communities that don't have access. We have 
been accessing and trying to provide greater access to the 
water facility in Palo, which is chlorinated. Our water 
engineers even say it is probably over-chlorinated at this 
time. But like those cloud fogging trucks, it is probably 
better to have a little over-chlorination because people can't 
clean.
    In the WASH area though, we are also focusing on protection 
there in that we are separating facilities for men and women. 
We found this in Haiti in the camps as well that we needed to 
make sure that there was a separation between shower facilities 
and bathroom facilities for men and women and children so that 
they were protected at that time, and that we have adequate 
lighting which has been a problem in those areas. But we have 
been providing hygiene kits to people so that the women can 
have flashlights, and are organizing a buddy system so that 
individuals don't go alone and are in open air defecation, but 
are in areas that they can be somewhat protected.
    We have done some cash for work and cleaning debris in 
various areas and then trying to reuse debris and also the 
coconut trees that have been knocked down. It is a key area 
that we are looking at for rebuilding and for preventing 
epidemics, as Nancy Lindborg mentioned earlier. In addition to 
that, we are looking for the longer term, and I will just 
follow-up quickly on that.
    As we look at the longer term, we are really looking once 
again on shelter for the longer term. Building back better, as 
we learned in Haiti, and durable solutions. One of the key 
problems we think we are going to run into as this comes down 
is again land titles, whose property is it? Most of these 
people have lost everything, and so we are supposing that as we 
start in this rebuilding process there is going to be many 
people that will have no title to the land, that there will be 
no historical memory, and so that will be a key issue.
    We are also looking at livelihoods. And many of the people 
there as you know were fishermen and fisherwomen, and they also 
harvested coconuts. Fifty percent of the coconut harvest now is 
completely lost. Those trees take 5 years to rebuild. So we are 
trying to generate, in this emergency phase opportunities for 
livelihoods with cash for work and other opportunities so that 
people can regenerate their livelihoods.
    So I would just say as we look to the future, our 
recommendations would be really to commend yourselves and the 
other actors of the U.S. Government and the U.S. military for a 
tremendous first step in the response. It has been fantastic, 
and I appreciate the fact that you are looking not only at that 
emergency response but the future, that there continue to be 
the ongoing funding for the relief. We need to continue to 
focus on that as we move into the future, and I think showing 
our solidarity at this time where we are in the holiday season 
and being thankful for the things we have in this country as 
Thanksgiving, and come into Christmas which is a very big 
holiday in the Philippines. Many of these people will be 
without that.
    As you rightly said, many people, and the children because 
there are no schools, have been sent to a very strong family 
structured network in other areas of the Philippines. There is 
concern that we have and others have that that is more of an 
opportunity for children and women to either be lost, be 
trafficked, or exploited. We are looking at ways that the 
Church shares information from one diocese to another of where 
people are coming and make sure that they are checking in. We 
do find that education is a key way of protecting children. If 
you can get children into school, it is a daily mechanism where 
teachers and outside people can check--are they withdrawing, 
are they being fed properly, do they need other things? So we 
find the greatest protection is to make sure the schooling is 
back and that we get these kids back in school. So whether that 
means they are moving to other family sites or whether we get 
schools up in Palo and Tacloban would be key for the future.
    Also, with the support for the recovery phase, shelter is 
going to be a key area. And then we were lucky that the Church 
actors had been trained in disaster risk reduction. They knew 
once it happened how to go out and register, how to do triage 
in certain areas. We need to continue those processes as the 
Philippines continues to be hit by bigger and bigger storms, 
and we need to focus on building resilience of those 
communities.
    I would also propose that we strengthen the emergency 
response capacity of the local mission. I know Ms. Steele has 
been very strong on the development aspect and they have been 
very supportive of the Bohol reconstruction that have gone on 
there, but I don't think they have the team and the staff to 
respond to a 3- to 5-year effort that is going to be there. And 
I would say that we look at mechanisms to assist her and her 
staff in responding over the longer term and in assisting the 
Filipinos in developing.
    I will say that as has been mentioned before, the Filipino 
community has been quick to respond. They have been very 
resilient, a very proud people, and a very caring people, and I 
think the government now after maybe a little bit of a slowish 
start is winding up and moving forward. So I think with some 
leadership from the U.S., which I think they would very much 
welcome, they would be positioned well for the future. Thank 
you.
    [The prepared statement of Mr. Callahan follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Mr. Smith. Mr. Callahan, thank you so very much, and thank 
you for the tremendous job Catholic Relief Services is doing. 
We were fully briefed by Joe Curry while we there, and Donal 
Reilly took us, literally, around Tacloban. So we got to see 
the operation up front and close, and we were extremely 
impressed.
    Mr. Palusky, thank you for your leadership and for briefing 
us before we left. I have been a great fan of World Vision my 
entire life.

 STATEMENT OF MR. CHRIS PALUSKY, SENIOR DIRECTOR, HUMANITARIAN 
              AND EMERGENCY AFFAIRS, WORLD VISION

    Mr. Palusky. Thank you. I have a written statement, but 
before this I just wanted to say thank you. It has been great 
to see, I mean be part of this. I have never been part of one 
of these events before, and I am just amazed to see everybody 
come together and the, well, the cross panel or how ever you 
describe it, just the support across the entire Congress. It is 
great to see people coming together and saying this is 
something we need to focus on not just for the short term but 
for the long term. It is something that I feel very honored to 
be here today to discuss. So thank you.
    And Mr. Chairman, this hearing is another example of your 
longtime commitment to vulnerable people here and abroad, 
especially children. Thank you for inviting World Vision to 
testify. My name is Chris Palusky. I am the senior director of 
the Humanitarian and Emergency Affairs Unit for World Vision. 
World Vision is a child-focused, Christian humanitarian 
organization serving millions of families and communities in 
almost 100 countries. We have 45,000 staff, and we feel like we 
are kind of everywhere.
    Our supporters are in every congressional district and 
include more than 1 million donors--16,000 churches, 
corporations, foundations, and we partner with the U.S. 
Government. You have my written testimony for the record.
    World Vision is a child-focused organization, so my oral 
remarks and recommendations for the U.S. Government and 
congressional engagement will also focus on the needs and risks 
of children. I will draw from World Vision's 63 years of 
experience responding to disasters, decades in the Philippines, 
and my own 16 years of working in international humanitarian 
emergencies. World Vision has implemented relief, development, 
and advocacy programs in the Philippines for 55 years. As of 
this morning, we have reached over 70,000 people impacted by 
the typhoon with essential goods and services. We plan to reach 
a total of 400,000 people and are committed to the long-term 
recovery.
    We have been there for the long term. We have been there 
for the long term before this, and we continue to be there for 
the long term after this. Based on this experience and our 
learnings throughout the years from other major disasters such 
as Haiti, World Vision recommends that the U.S. Government: 
Integrates protection into its U.S. Government-funded disaster 
assistance throughout the response; ensures that the Government 
of the Philippines, NGO partners, the United Nations, and other 
key entities engage and collaborate with people impacted by the 
disaster from the start to finish of the response; prioritize 
the needs, including protection needs, of women and girls; 
monitors and pushes for a needs-based access to aid, services, 
and economic opportunities; is vigilant on accountability 
around aid to counter the corruption and cronyism that is often 
a risk whenever and wherever disasters occur.
    I will now say a few more words about our recommendations. 
Protection means focusing on safety, dignity, and rights of 
people impacted by a disaster. The October 2012 Guidelines for 
Proposals of the USAID Office of Foreign Disaster Assistance, 
OFDA, requires that proposals must demonstrate protection 
mainstreaming in all sectors of the programs. Put another way, 
all potential OFDA partners must integrate protection 
throughout their OFDA-funded programs regardless of sector. It 
is important for USAID to ensure that these guidelines are 
being followed from the start of the program to the end. 
Maximizing integration will maximize protection for especially 
vulnerable people. It will also minimize the difficulties and 
the costliness of integration protection retroactively.
    The priority when engaging and collaborating with people 
impacted by the disaster should be identifying their assistance 
and protection needs and ensuring that they are met. Their 
meaningful participation at all stages of the response, 
including assessments, design, implementation, and monitoring, 
is essential to the success of the program and can prevent 
harm. We want to make sure that we are not doing programs to 
people, but we really want to make sure that we are doing 
programs with people. And we want to urge the U.S. Government 
to ensure that is happening across the board.
    In disasters, children are often most at risk because of 
abuse, exploitation, neglect, separation from their families, 
disease, and other threats. There are numerous ways, however, 
to reduce this risk, including prioritizing opportunities for 
adults to earn a living; supporting comprehensive registration 
of children that is coupled with family tracing and 
reunification efforts; ensuring children have safe places to 
play, learn, and recover; mdonitor an increase in explicit 
images of Filipino children online and on Skype; restoring 
schools; increasing training for national police and other 
security personnel in minimum standards of child protection; 
strengthening existing formal and informal child protection 
mechanisms at the community and local government levels; and 
finally, prioritizing clean water, proper sanitation, hygiene 
education, and preventing and responding to disease outbreaks.
    Basically what we are doing together right now, it is kind 
of the frontline response. We want to make sure that people are 
going to be safe, people have access to basic services, and we 
want to make sure that this kind of continues on through an 
evolution. Women and girls would potentially be at less risk, 
especially in evacuation centers, if a comprehensive plan to 
improve security for women and girls is developed and 
implemented with cooperation of national police and other 
security services. Opportunities for women to earn a living 
especially those who are heads of households are essential for 
protection from abuse and exploitation.
    The context for these recommendations includes the typhoon 
destroying or disrupting the sources of income for over 5.6 
million men and women. I read that this morning, and I didn't 
realize how many people actually had lost their sources of 
income. I thought, you are looking at 1 million, you are 
looking at maybe 2 million people. But seeing this morning it 
was 5.6 million women and men, it was astounding.
    Officials from the Filipino Department of Health are 
already warning that several diseases are becoming huge public 
health threats as a result of the typhoon. In addition to the 
emerging health risks prior to the typhoon, NGOs including 
World Vision, multilateral institutions like the United 
Nations, and the ILO have already identified the affected 
provinces in the Philippines as having 3 million children 
engaged in child labor. When economic opportunities for adults 
decrease and health challenges arise, the risk of children 
being abused and exploited often increases.
    I have confined most of my time to sharing our 
recommendations and the context for them. Congressional 
oversight--and this is actually really important for you guys--
and engagement is an important part of strengthening the 
American response to disasters, and all of us should be 
prioritizing action. During the question and answer period, I 
would be glad to unpack the recommendations and give any 
examples. These details are also written in my written 
testimony. Mr. Chairman, thank you again for your leadership 
and for this opportunity. I welcome your questions and those of 
the other members of the subcommittee.
    [The prepared statement of Mr. Palusky follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Mr. Smith. Mr. Palusky, thank you very much for your 
testimony and for all the fine work and recommendations you 
have made here today, and without objection, your full 
statement will be made a part of the record.
    Just a few opening questions. Mr. Callahan, and both of you 
really, one of the things that we noticed and from questions we 
raised there were that schools may not open for months. This 
may be the end of the school year. And I think as you pointed 
out, schooling not only provides educational challenges to the 
child, but it also serves as a place for protection. It also 
can be, I think, a way of observing whether or not some PTSD 
and other problems might be manifesting, which could very well 
be.
    We met with a man named Papoose who, he is the same man who 
carried that 3-year-old dead girl, a little girl, who then just 
broke down. He said that at night if you really listen you can 
hear the tears of young children who get scared very easily 
that if there is a thunderstorm or some other thing that it is 
another typhoon. Very, very much on the edge, and schooling 
would certainly help with that. I think your point to Gloria 
Steele about a 3- to 5-year recovery, we need to be looking at 
that, working with them of course to make sure that there is a 
broader horizon as to how long, how sustainable these recovery 
efforts will be. But if you could elaborate perhaps on the PTSD 
issue.
    Secondly, the risk to relief workers and health teams. One 
of the USAID leaders that we met with, Al Dwyer, and I 
mentioned him earlier, told me when we were talking about 
dengue fever that he has had it. And he said, ``I have had 
malaria six times.'' And from our work, my work, the work of 
our committee in Africa and elsewhere, so often the case of the 
health workers and the relief teams are that they have 
experienced many of these diseases. I mean, and with a 
possibility of an epidemic of dengue and others manifesting 
very shortly, maybe fogging will work, but it does raise 
questions to their health concerns as well. Not only do they do 
so much to help others, but then they themselves become sick.
    I will never forget on a visit to Kalma Camp in Darfur, Mr. 
Simpkins and I met with the camp director who was shaking and 
had malaria. And we said, ``Go lie down, we can talk to 
somebody else.'' He said, ``No, it is my job. I have to do 
it.'' I mean, just extraordinary courage on behalf of others. 
And so, I am worried about the health workers, if you could 
speak to that.
    The cash for work program, how long, Mr. Callahan, and you 
both might want to answer this, do you envision that occurring? 
I think your point was well taken about the coconut trees. We 
saw them bent over, broken, everywhere we went. They do take 5 
to 7 years to revitalize that industry. What will the people 
do? Are there some other viable livelihoods for those 5.6 
million people who have lost their livelihoods as Mr. Palusky 
just said? And on the trafficking side, do you think we are 
doing enough? Because I think now is when the greatest risk 
arises.
    The parish-to-parish idea, I think, is a good one. I had 
not heard that of sharing lists. And then finally, on the issue 
of all of the pregnant women who will need a safe venue to 
deliver their children, is it time for a blood drive, perhaps 
by the diocese around the area? Of course it requires a cold 
chain, but if the blood is not available, women will die, and 
it is all unnecessary. It seems to me we need to prioritize 
that as well. Mr. Callahan?
    Mr. Callahan. Maybe to jump in first on, and appreciate 
your comment about the risk to the relief workers. One of the 
things that we are trying to do right away is make sure that 
they have an adequate place to stay. So there is a look at 
trying to get some containers and some spaces for some of the 
relief workers to stay. We have been very fortunate that people 
volunteered to be there during the Thanksgiving holiday season, 
and we have got the next troupe going in to celebrate Christmas 
in the Philippines. So some people who have been risking 
themselves are also very generous with their time in showing 
solidarity with the people there. We do try to rotate staff in 
and out and take good care, but unfortunately, many of us know 
of staff members who, similar to the situation in Darfur, have 
died of cerebral malaria and other things. And so it is a 
continual issue that we continue to monitor, but appreciate 
your concern there.
    You also mentioned on the issue of trafficking, are we 
doing enough? I would say my answer always to that is no. I 
don't think you can do enough in the trafficking field, one 
woman, one child that is missing. And we saw this in Haiti. I 
saw it myself in India when I went to one of the relief sites 
after earthquakes and super cyclones there, where people came 
up to me and said, ``Do you want a child?'' And so we need to 
continually do more. I think the fact that this committee has 
raised this issue that you have highlighted, you have put a 
spotlight on it, I think is an opportunity for us to raise the 
issue. I know Ms. Steele is very interested in this area, and I 
think that is something that we can highlight once again with 
her and raise it with the Filipino Government.
    I would also say on the issue of the children, two things 
that we found have been very helpful in both Haiti and in 
Syria. One is child-friendly spaces that you can go and have 
children that are in areas where they can have safety, where 
they can play games and all, and where they can do things that 
they feel like children again and feel protected. So that is 
one area where I think that can help. There is recognition 
among the church actors that we have talked to already and 
people in the communities that trauma is a big issue not only 
for the children but for the caregivers, for the clergy that 
are there. Everyone was sitting in this super cyclone, and we 
talked to people who were sitting with poles holding up the 
walls as the roof was torn away, and someone came to assist 
them and was whipped by the wind and thrown against walls.
    And so I think the post-traumatic stress, we have brought 
people into different countries, and Syria was the latest, 
where we had interactions and had counseling for them; 
similarly too in Haiti. And we are trying something out in 
Syria right now with puppet shows for children so that they can 
express. Usually there are drawing and puppet shows, so they 
can express what they have gone through. And children are also 
very resilient, so if we do it at an early time I think 
hopefully that can be of assistance.
    I would say lastly, with the pregnant women, I think it is 
a key issue. We saw women there and saw some of the newborn 
babies that were there. Big concern. We did the 2\1/2\-hour 
drive to Ormoc which had some generated electricity and all. I 
think it is a key issue. As I said, the Church is looking at 
the rebuilding of its institutions, health clinics, schools, 
and churches, and I think that it is a priority, how we protect 
these women. It hasn't been solved as of yet, but we will 
continue to raise it.
    Mr. Palusky. I kind of have to mirror what you said but on 
a different front. World Vision has seen that it is important 
to have a frontline response with the lifesaving interventions 
such as food, water, and shelter, and we have done that. At the 
same time we have started child-friendly spaces. So we have, I 
believe it is 18,000 children in child-friendly spaces right 
now, at least that is our target. We are planning to scale that 
up, I want to say to 40,000 children. We see that the care 
through child-friendly spaces helps deal with the trauma, the 
PTSD. It also helps to keep children safe. But it also helps to 
convey important messages such as health messaging, water and 
sanitation messaging, and we have seen this as one of the key 
mechanisms for the frontline of a response. So for that reason, 
we have prioritized it in that lifesaving intervention group.
    Secondly, the risk for the health team. As a survivor of 
dengue, I actually experienced dengue in Sri Lanka, so we 
understand that it is a horrible thing. I just remember 
shaking, and it is bonebreak fever. It hurts. We have 
prioritized, as an organization, staff care. So we have done 
everything from finding appropriate places to live, of course 
ensuring that at nighttime people have mosquito nets and proper 
healthcare. In addition to that, we have a group that we meet 
with for psychosocial care within our organization just to make 
sure that our staff is mentally okay. For our frontline 
responders, we are partnering with Headington Institute and 
they give us, we meet with, I call it meeting with the shrink, 
once every week. And it was great just to debrief and make sure 
that everybody was doing okay.
    As far as cash for work goes, we see it as one of the key 
frontline responses but also helping people to get back on 
their feet. So that yes, it will help clean off the streets, 
yes, it will help clean up the buildings, but we want to make 
sure that it gets cash in people's pockets so that they are 
able to take ownership of their lives again. And we would see 
this happening for, let us say, the short- to medium-term 
response. We want people to have that availability of cash to 
start their lives again.
    And as far as trafficking, I would second my colleague Mr. 
Callahan from CRS by saying no, we are never doing enough on 
trafficking. For that reason, at World Vision, we came up with 
some recommendations, and we would like for, well, this group 
here to help urge USAID to help urge the Filipino Government 
and also different constituencies in the U.S. Government to 
push for more child protection programming because we do see 
trafficking as a problem now, and it was a problem before. We 
have actually been working in the Philippines for a long time 
on child trafficking, child labor. In fact, I just found out 
before this meeting that we have helped, through community 
groups, which we are actually responding through at this point 
in time, to get over 30,000 children out of underage work. 
Children who were working in factories, sweat shops, and in 
places they shouldn't be working; they are children.
    We set up committees, community based organizations, 
community committees for helping children to get out of that 
but at the same to identify when children are at risk. We are 
pushing hard for those committees to be alert and to be able to 
respond. So that is all I have to say.
    Mr. Smith. You in your testimony, Mr. Palusky, mentioned--
--
    Ms. Jackson Lee. Mr. Chairman, I want to offer just a word 
and then I am----
    Mr. Smith. Okay. Ms. Jackson Lee.
    Ms. Jackson Lee. Just a courtesy. Because I just want to 
thank you for holding this hearing. I won't stay here. I have 
been in another hearing and I just stepped out to thank my 
colleague for his leadership, and the ranking member. I just 
want to be able to work with the committee and collaborate with 
some of the committees that I serve on. And I will just leave 
these points on the record. And that is the response of the 
United States, there was an international response. And I know 
part of it was USAID. The identification of the deceased, the 
reunification of families in which I know that may have been 
raised, and I know the issue of disease has been raised. But 
specifically raising those questions, since the pain of those 
individuals was clear. And then the continuing support that the 
United States' private sector can give to the Philippines.
    I thank you for allowing me to place that on the record, 
and with that Mr. Chairman, I look forward to working with this 
committee and offer my deepest sympathy to the people of the 
Philippines and yield back. Thank you for your courtesy.
    Mr. Smith. Thank you very much, Ms. Jackson Lee.
    If I could, Mr. Palusky, you mentioned in your written 
testimony, just last week Filipino authorities arrested two men 
in Tacloban for human trafficking as the men tried to take a 
16-year-old girl onto a flight to Manila. As we meet here 
today, and it is an issue that I have been pushing within the 
Organization for Security and Cooperation in Europe, the OCSE, 
we now have an action plan which I think will be adopted 
promoting the idea of training flight attendants, bus people, 
and people on trains to spot a trafficker and notify the 
appropriate individuals.
    I mentioned it, we mentioned it several times during our 
trip, to officials. I am not sure Philippine Airlines has any 
intention on doing it, or ANA, which flies frequently on and 
out of Manila, as does United. Nancy Rivard has done yeoman's 
work as a flight attendant, and she makes the point that 
trafficked persons need to be moved somehow, and very often 
internationally, obviously it is by the airlines. And very 
often if you have a trained flight attendant or flight 
attendants who can spot a trafficker and trafficked people, the 
telltale signs, inform the pilot, and then when that plane 
lands arrest or at least separate and find out whether or not 
there is a trafficking in progress.
    She told me that there was a pedophile ring coming out of 
Haiti, and they noticed there was something wrong. They finally 
investigated it, and ICE and law enforcement stepped in and 
broke up a huge pedophile ring operating under the cover of a 
terrible, natural disaster. Where it has been done, it is cost-
free. It is a matter of training, situational awareness. And it 
seems to me, we need to say with one collective voice, train 
flight attendants. Train all people. You mentioned earlier in 
your testimonies about how important it is that the police and 
others be well aware. But they have got to move these 
individuals sometime, somewhere, and they usually use some kind 
of public transportation. So, if you might want to speak to 
that.
    And also, because again, I think now is the critical phase 
when in a sense Tacloban was hermetically sealed by the typhoon 
with only the military coming in with C-130s and the like, it 
was very hard for traffickers to move anyone. Now the roads, 
the bridges, the water routes, and the air routes are wide 
open. Now is the time to move in absolute earnestness to 
mitigate the possibility of young children and women being 
trafficked, if you might want to respond.
    Mr. Palusky. First of all, I think it is great to see the 
initiative taken and just the pushing to help stop trafficking. 
As far as different initiatives, this sounds like one of a 
great many possibilities. So we want to concentrate at a high 
level with governments, we want to concentrate at a different 
level of course with corporations with whomever's working. So 
people who are working, airline organizations, but also for us 
it is almost more important at the community level. So we want 
people, your local policemen, your local, I don't know, mom-
and-pop owner, your just basic community members to come 
together and be able to identify when there is the potential of 
trafficking and to reduce those risks.
    So we encourage it. We are very happy to see at the high 
level and even the medium level and then of course at the lower 
level where we have been working for a long time that we just 
want to keep on reinforcing and working in this area, as we do 
see it as an area of high risk, especially now.
    Mr. Callahan. I might just add that I think, as you have 
earlier presented legislation that would have a fund to address 
this as which I think would be a great opportunity. In the case 
of Leyte, I would think the most vulnerable area would be, as 
you suggested, the water routes. We came through Ormoc. There 
were crowds and crowds of people. It would be easy to move 
people in. They were overloading the ferries at the time. 
People are sitting on the stairs and you hear of all these 
disasters and wondering if you are going to be part of one as 
you are transferring over. So I do think in these transit 
points, highlighting some individuals that could pick them out, 
I would think in some of these cases, particularly post-
emergency, it would be a very challenging, but people that can 
go and fit in.
    We actually found that in Haiti on the border with the 
Dominican Republic, we had a group of sisters that would be 
there, and actually, they were chasing people across that 
bridge and stopped people. They had a relationship with the 
border guards, and if they came and identified something the 
border guard would not let them pass. And we did not have one 
case where they approached someone that actually wasn't trying 
to transport someone. They then took the child to a safe house 
that the sisters were running and protected them there. But 
there are these mafia rings, type of mafia rings that go 
through there, and I think there is a need to have some civil 
society along with the officials, border guards, transport 
officials, and others, so that there can be a combination type 
of effort.
    Mr. Smith. Our hope is, and we did raise this again with 
the two Cabinet members that we met with, that the Philippines 
would use this as a model themselves, to use every best 
practice imaginable, including the training of airline flight 
attendants to stop traffickers. Because we know they are 
perched and ready to exploit. So thank you.
    Yes, Chris?
    Mr. Palusky. If I could make one final follow-up on that 
too. We see it as important in the private sector, the local 
level, but of course also with the police departments and with 
municipal authorities. The training of those different units, 
different areas we have seen, has a huge impact on, let us say, 
stagnating, limiting, or mitigating a large effects of 
trafficking. So, we would like to encourage that even more, and 
especially throughout this response. So it is at all levels.
    Mr. Smith. I would just point out parenthetically, and I 
think it is important to underscore this, the Philippines needs 
to know we are all in this together on combating trafficking. 
With the Super Bowl coming to New Jersey in 2014, Governor 
Christie, the Attorney General, law enforcement, state police, 
and Homeland Security at the state level are all working 
overtime, knowing that that venue becomes a magnet for these 
exploiters of women and children. So why should we think, if it 
happens in the glare of the Super Bowl, a typhoon-afflicted 
area certainly has to be an even greater danger area. So we 
need to work even more with the Philippine leadership so that 
they will do more to mitigate trafficking.
    Mr. Green?
    Mr. Green. Thank you, Mr. Chairman. You mentioned earlier, 
I believe it was Mr. Callahan, that we have 3 million children 
who are in child labor. Sometimes that is a very polite way of 
saying something akin to involuntary servitude. I would like 
for you to elaborate, if you would, on the conditions that 
these children are having to work in, and say a little bit more 
about it so that I can get some sense of what we are talking 
about.
    Also, you mentioned the gratefulness of the Filipino 
people. One of the things that I hear as I move about, with 
reference to our foreign aid, is that people are not always 
thankful. And there seems to be this notion that because they 
are not thankful enough, perhaps we should do less. And of 
course you and I know that we do it because Dr. King was right. 
Life is an inescapable network of mutuality tied to a single 
garment of destiny. What impacts one directly impacts all 
indirectly, and what is happening to people in harm's way today 
can impact us tomorrow. We are all blessed, and but for the 
grace of God this could easily have been us, especially those 
of us who live along the gulf coast. So if you would, talk 
about the children.
    And finally, if I may, Mr. Chairman, I would just like to 
mention Mr. Simpkins and Mr. Tozzi. I just want to mention that 
they were very helpful and very knowledgeable about these 
issues that we had to deal with, and spoke up and made some 
great points about a number of things that are important to the 
people not only of the Philippines but also to us in terms of 
our ability to message these things that we saw. So I just want 
to give my expression of appreciation to both of them. And I 
will yield back.
    Mr. Smith. Thank you very much, Mr. Green.
    Mr. Callahan. Maybe just to touch base once on the 
appreciation that the Filipinos, because I know sometimes 
people feel that we are not branded enough, and people don't 
see it enough. We, on every transport facility that we were on 
people came up to us specifically to thank us for being there 
for the assistance. Not just when we were in the churches but 
even in an airport the people would come up.
    We even had the opportunity, in Cebu they had a basketball 
game with their two professional teams to try to raise money 
for this effort. The two teams happened to be on the next 
morning, on the same flight we were flying to Manila and each 
one, as they came by, shook our hands and thanked us for being 
there and being there to assist them. So the recognition was 
there. Everyone we talked to did recognize the work of the 
United States.
    I will mention a comment about the children and then pass 
it to Chris because he was mentioning some of that earlier. But 
I think your comment about child labor and servitude, it really 
for me is a matter of semantics. Many cases, these children, 
there are certain industries for child labor that are ``legal'' 
for children and others that are ``illegal.'' Many of us feel 
that all industries should be illegal for children. It is one 
thing if it is a family type of activity, but in many cases, it 
does come more to servitude when a family takes a loan, their 
child is going to help work to pay off the loan and that 
continues on. And we see that in the Philippines. We see that 
in Brazil. We see that in African countries. And so the issue 
of servitude continues to be a big one for us as well. Chris?
    Mr. Palusky. Thank you. Within the Philippines we have seen 
that there are certain industries in which children are 
involved in child labor. You think of the sweatshops. You think 
of the garment industry. We have seen in a lot of corporations 
and a lot of, well, let us say, I don't want to say 
corporations, I will say companies throughout the country that 
there is child labor. World Vision has a policy where we have 
been working throughout the country to help eliminate that, and 
again, it goes down to the local level. So we have been trying 
to focus on identifying what these industries are and actually 
even stopping people from coming in and exploiting people, and 
not even on the child labor level, but also on the trafficking 
level.
    We have seen people come in to the Philippines from the 
Middle East and other areas around the world to get domestic 
servants. So they use this as an opportunity, and especially 
around, I will say, times of disaster or when people are 
desperate for work to come in and say, ``Hey, we have an 
opportunity for you to work in Dubai, for you to work in 
Lebanon.'' And people are desperate, and they are thinking this 
is a great opportunity. World Vision is working with these 
local community members and also with the local municipalities, 
the police departments, to make them aware that maybe these 
people are legitimate, but please make sure that they are 
legitimate organizations, and you are not just allowing a 
person to be a trafficking victim. So we will continue to work 
in this area, and we will continue to hopefully highlight some 
of these challenges especially around domestic servitude that 
we have seen especially with Filipinos.
    Mr. Callahan. Just to add one point to that. I was recently 
on a visit to the Balkans and Cyprus and all, and we have found 
that, in the Middle East, we have centers now that some of our 
local partners have in Lebanon where they have Somalis, they 
have Sudanese, they have Sri Lankans. They have all these 
people that have been trafficked from other areas, including 
Filipinos. And they are in these centers, and there is the 
attempt to try to reunify them and bring them back home--an 
Ethiopian woman that was in Lebanon that we finally got back to 
Ethiopia and all.
    So these continue to be areas where obviously when they are 
trafficked or when they are put into this child labor, at 
times, it then becomes into more of a servitude. If they are 
transported across international lines, once you take their 
passport they are afraid they might be arrested then, how did 
they come here legally, and they are very vulnerable. And you 
need some type of opportunity, people that they can trust. 
Typically in our situation, they have gone to local safe 
houses. They have been rehabilitated there, and then we try to 
work with the local Embassies. But there are these rings that 
continue to be out there.
    Mr. Palusky. If I could just follow-up on that and 
piggyback. It actually is interesting. I worked in Lebanon for 
2 years before coming to the States, and I was actually seeing 
some of these programs that World Vision and CRS, Caritas are 
working on together. And you do see people from the 
Philippines, Ethiopia primarily, and different places 
throughout the world, and people get trapped into this. So not 
only are they trafficked into the country, but their passports 
are taken. If they don't pay back their travel loan, they are 
not given permission to stay in the country. But, they are not 
given back their passport, so they are arrested. So people sit 
in jail until they are able to pay back their travel loan or 
whatever fees that their employer feels that they are owed, and 
it is a vicious cycle. So we were working with people in the 
prisons who had been stuck there because they were victims of 
trafficking, and they weren't able to pay in order to get back 
home. So we are hoping that, again, we can mitigate some of 
these things from happening through this disaster for places 
like Lebanon, Dubai, throughout the Middle East, and actually 
globally.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Smith. Thank you. Is there anything else either of you 
would like to add before we conclude?
    Mr. Callahan. I would just say that I think we are off to a 
good start here, and I appreciate the attention you, Mr. 
Chairman and Representative Green, have brought to this case by 
going out to the areas. I think as we mentioned before, I would 
just put that one last emphasis that it is not over. The 
disaster hasn't disappeared. Syria is getting worse and worse. 
We heard today 12 sisters were just kidnapped in a particular 
area. We have Central African Republic. It is important that we 
don't forget the Philippines and let that country go down. 
Thirteen million people were affected. This is going to affect 
the whole country over the long term. It really needs a 
significant 3- to 5-year response. And I think the Filipino 
people, I know the Filipino church, and the Government are 
ready to put their shoulders to the grindstone. I think if we 
do it in solidarity with them they can achieve that goal. If we 
let it go, frankly, shame on us.
    Mr. Palusky. And as we heard in the testimony before ours, 
I would like to say amen. Definitely, it is going to be a 
marathon. We always hear you have got to sprint out there, you 
have got to respond immediately. Yes. With this many people 
affected, the scale of the disaster, it is going to be a 
marathon. So I just would encourage, well, the U.S. Congress, 
the U.S. Government, and anyone you can talk to, to keep the 
eye on the long run. Thank you.
    Mr. Smith. Thank you very much. And on that note I thank 
you, gentlemen, and your organizations for the extraordinarily 
important work that you do. Thank you. The hearing is 
adjourned.
    [Whereupon, at 5:18 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
